Report No. DODIG-2013-061            March 27, 2013




   Improvements Needed to the Purchase Card On-Line
                      System
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
A/BO                          Approving/Billing Official
DMRA                          Data Mining and Risk Assessment
DPAP                          Defense Procurement and Acquisition Policy
GPC                           Government Purchase Card
PCOLS                         Purchase Card On-Line System
PCPO                          Purchase Card Policy Office
U.S.C.                        United States Code
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                  March 27, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS

SUBJECT: Improvements Needed to the Purchase Card On-Line System (Report No. DODIG-
          2013-061)

We are providing this report for your information and use. No written response to this report
was required, and none was received. However, informal comments from management on a
discussion draft were considered in preparing the report. We are publishing this report in final
form. The Director of Program Development and Implementation, Defense Procurement and
Acquisition Policy, Office of the Under Secretary of Defense (Acquisition, Technology, &
Logistics), requested this audit. Our objective was to determine whether Department of Defense
Approving/Billing Officials adequately reviewed transactions that the Purchase Card On-Line
System referred for being at-risk of noncompliance with applicable laws and criteria.

Neither we nor the Defense Procurement and Acquisition Policy could use the Purchase Card
On-Line System to assess and determine whether DoD Approving/Billing Officials adequately
reviewed 32,690 transactions that the system referred (during the period January through
June 2012) as being at-risk of noncompliance with applicable laws and criteria, including lost
and stolen cards.

When we requested information to conduct the audit, the Defense Procurement and Acquisition
Policy office became aware the automated system lacked the capability to produce the data
needed to complete the assessment of the Approving/Billing Officials’ reviews and initiated
actions to improve the Purchase Card On-Line System. Thus, we are not making any
recommendations in this report.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.




                                             Lorin T. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2013-061 (Project No. D2012-D000DC-0200.000)                March 27, 2013


              Results in Brief: Improvements Needed to
              the Purchase Card On-Line System
                                                       As a result, the automated system cannot be
What We Did                                            employed for oversight reviews, such as
The Director of Program Development and                assessments of Approving/Billing reviews and
Implementation, Defense Procurement and                disposition of at-risk transactions.
Acquisition Policy, Office of the Under
Secretary of Defense (Acquisition, Technology,         Because of the information we requested to
& Logistics), requested this audit. Our                conduct the audit, the Defense Procurement and
objective was to determine whether Department          Acquisition Policy became aware the automated
of Defense Approving/Billing Officials                 system lacked the capability to produce the data
adequately reviewed transactions that the              needed to complete the assessment of the
Purchase Card On-Line System referred for              Approving/Billing Officials’ reviews and
being at-risk of noncompliance with applicable         initiated actions to improve the Purchase Card
laws and criteria. In addition, we were to             On-Line System. Thus, we are not making any
determine whether Department of Defense                recommendations in this report.
Approving/Billing Officials adequately
reviewed cases in which they identified cards as       Management Comments and
lost or stolen.                                        Our Response
                                                       We do not require a written response to this
What We Found                                          report.
Neither we nor the Defense Procurement and
Acquisition Policy could use the Purchase Card
On-Line System to assess and determine
whether DoD Approving/Billing Officials
adequately reviewed 32,690 transactions that the
system referred (during the period January
through June 2012) as being at-risk of
noncompliance with applicable laws and
criteria, including lost and stolen cards.

This occurred because the automated system:

   •   did not contain sufficient capability to
       automatically retrieve and match the
       case disposition reviews with the
       universe of the at-risk Government
       Purchase Card transactions, and
   •   was unable to archive case history file
       data, which were maintained in a
       separate data warehouse.




                                                   i
Report No. DODIG-2013-061 (Project No. D2012-D000DC-0200.000)       March 27, 2013

Recommendations Table

                  Management                      Recommendations Requiring Comment
Director of Program Development and               None
Implementation, Defense Procurement and
Acquisition Policy (DPAP), Office of the Under
Secretary of Defense (Acquisition, Technology &
Logistics)




                                             ii
Table of Contents

Introduction                                                              1

      Objectives                                                          1
      Government Purchase Card Audit Requirements                         1
      Review of Internal Controls                                         2

Finding. Adequacy of Data Availability                                    3

      Audit Request                                                       3
      Defense Procurement and Acquisition Policy Improving the Purchase
             Card On-Line System To Permit Added Oversight                5
      Summary                                                             6

Appendix. Scope and Methodology                                           7

      Use of Computer-Processed Data                                      7
      Prior Coverage                                                      7
Introduction
Objectives
The Director of Program Development and Implementation, Defense Procurement and
Acquisition Policy (DPAP), Office of the Under Secretary of Defense (Acquisition,
Technology & Logistics), requested this audit. Our objective was to determine whether
DoD Approving/Billing Officials (A/BOs) adequately reviewed transactions that the
Purchase Card On-Line System (PCOLS) referred for being at-risk of noncompliance
with applicable laws and criteria. In addition, we were to determine whether DoD A/BOs
adequately reviewed cases in which they identified cards as lost or stolen. See the
Appendix for the scope and methodology related to the objective.

Government Purchase Card Audit Requirements
Section 2784, title 10, United States Code (10 U.S.C. § 2784) establishes the Government
Purchase Card (GPC) Program for the Department of Defense. Section 2784 requires the
DoD Office of Inspector General to perform periodic audits of the DoD GPC Program to
identify the following:

   •   potentially fraudulent, improper, and abusive use of purchase cards;
   •   patterns of improper cardholder transactions, such as purchases of prohibited
       items; and
   •   categories of purchases that should be made by means other than the GPC to
       better aggregate purchases and obtain lower prices.

Furthermore, section 2784 requires DoD to use “effective systems, techniques, and
technologies to prevent or identify potential fraudulent purchases.”

DoD Office Responsible for the Government Purchase
Card Program
The DPAP was responsible for oversight and issuing policy for the DoD GPC Program.
To assist DoD with internal control and policy compliance, the DPAP awarded a contract
for the development of a Data Mining and Risk Assessment (DMRA) applications as part
of an automated system, the PCOLS, to examine transactions and identify those that were
at-risk of being noncompliant with laws and other criteria. DoD began deployment of the
PCOLS Data Mining and Risk Assessment modules during the 2nd Quarter of FY 2009 at
one Air Force location, the Defense Contract Management Agency, the Defense Logistics
Agency, and the Washington Headquarters Services and that deployment continues. As
of February 6, 2013, the PCOLS Data Mining and Risk Assessment module contract ceiling
amount was $14.4 million.




                                           1
The Purchase Card On-Line System
The DPAP developed the PCOLS to improve controls over the use of the GPC program
by using a data mining process to identify potentially improper GPC transactions. The
PCOLS suite of applications consists of the following modules:

           •   Enterprise Monitoring and Management of Accounts,
           •   Authorization, Issuance, and Maintenance,
           •   Data Mining,
           •   Risk Assessment, and
           •   PCOLS Reporting.

The Enterprise Monitoring and Management of Accounts module and the Authorization,
Issuance, and Maintenance module were administrative modules. The Data Mining
module contained a mining feature that was capable of reviewing 100 percent of the
purchase card transactions to provide near real-time transaction monitoring. As part of
the function of the DMRA modules, each transaction was assigned a Risk Predictive
Model score that identified the risk of impropriety for each transaction. Selected
transactions with a high Risk Predictive Model score and randomly selected transactions
were flagged for management review.

Under the DMRA operations concept, the primary or the alternate A/BOs, who received a
notification e-mail, were to review each of the flagged transactions. The A/BOs were to
determine the validity of the transaction. With every flagged transaction, the A/BOs
were to answer a minimum of nine questions, such as whether the transaction was a split
transaction or a prohibited item. This review process was termed “case review.” After
the case review, the A/BO would complete a “case disposition” to categorize the
transaction as valid, administrative discrepancy, misuse, suspected fraud, lost, or stolen.
Also, the GPC transactions that the DMRA identified as “high risk” transactions were to
undergo an independent review by the responsible Agency/Organization Program
Coordinator. Recently, DPAP decided to migrate the Risk Assessment functionality to
the Reporting Module.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to establish a management internal control
program to identify and promptly correct ineffective internal controls and establish
internal controls when warranted. We identified an internal control weakness: PCOLS
did not contain a sufficient capability to automatically retrieve and match the case
dispositions’ reviews with the data on the at-risk GPC transactions. During the audit, the
DPAP was taking actions to correct the weaknesses. We will provide a copy of the report
to the senior official responsible for internal controls in the DPAP.




                                            2
Finding. Adequacy of Data Availability
Neither we nor the Defense Procurement and Acquisition Policy could use the PCOLS
System to assess and determine whether DoD A/BOs adequately reviewed 32,690
transactions that the system referred (during the period January through June 2012) as
being at-risk of noncompliance with applicable laws and criteria, including lost and
stolen cards.

This occurred because the PCOLS:

    •   did not contain sufficient capability to automatically retrieve and match the case
        disposition reviews with the universe of the at-risk GPC transactions, and

    •   was unable to archive case history file data, which were maintained in a separate
        data warehouse.

As a result, the automated system could not be employed for oversight reviews, such as
assessments of A/BOs reviews and dispositions of at-risk transactions.

Audit Request
On August 24, 2012, the Director of Program Development and Implementation, DPAP,
Office of the Under Secretary of Defense (Acquisition, Technology & Logistics),
requested this audit, and we announced the audit on September 5, 2012.

Complete Universe Data Availability Was Limited
Although the PCOLS provided the Military Departments and Defense Agencies with
another oversight capability not previously available to everyone, the PCOLS capability
                                       to allow overall assessments was limited. The
    The PCOLS provided a data          PCOLS provided a data mining tool that identified
      mining tool that identified      transactions that were potentially noncompliant
       transactions that were          with applicable laws and criteria. However, since
   potentially noncompliant with       the PCOLS was deployed in 2009, it did not have
    applicable laws and criteria       the ability to provide the information that was
                                       needed to resolve whether approving officials
adequately reviewed the transactions that the PCOLS referred as being at-risk of
noncompliance, which was also the primary objective of this management-requested
audit.

On October 1, 2012, the DPAP DMRA application provided 148,488 cases for
management review during the period of January 1, 2012, through June 30, 2012. The
148,488 universe included 32,690 cases that A/BOs reviewed and closed. However, the
remaining 115,798 cases were either still in the review process or were related to Military
Departments and DoD Agencies not using PCOLS. For example, the Army and Navy
were not fully using PCOLS for the review of at-risk transactions; however, their
transactions were included in the data received from the banks that provide DoD GPCs.


                                             3
When we requested information to conduct the audit, the DPAP personnel became aware
                                    the DMRA database did not contain sufficient
 DMRA database did not contain      capability to automatically retrieve and match the
      sufficient capability to      case disposition reviews with the universe of the
   automatically retrieve and       at-risk GPC transactions. For management to
   match the case disposition       perform an assessment of the A/BOs’ review
 reviews with the universe of the   results after case disposition closure, the DMRA
    at-risk GPC transactions        needed to match two sets of data. The DMRA
                                    needed to match the following:

    •   transactions referred to the A/BOs for review to the responses that the A/BOs
        provided regarding the case, and
    •   specific information that identified the transactions’ cardholders, and other data,
        such as locations, vendors’ data, and time frames for the review process.

Furthermore, as a result of the inability to automatically match the two sets of data, the
dollar amount and other summary data that the A/BOs’ cases represented were not able to
be retrieved in an efficient and timely manner. On October 22, 2012, DPAP personnel
admitted that the system could not automatically produce the information requested and
that obtaining this information would require a significant manual effort.

Historical PCOLS Data Were Not Being Archived in the
Data Warehouse
The DPAP was not aware that PCOLS Data were not being archived in a data warehouse
                                 before our request for information to support the audit
    PCOLS Data were not          objective. DPAP personnel stated, “We were under the
      being archived in a        impression that the requested data would be available
        data warehouse           from the PCOLS Reporting Data Warehouse.
                                 Unfortunately, what we found out is that it is not.”
DPAP personnel also stated, “DPAP was unaware of deficiencies in the data warehouse
when the audit commenced. The data existed but was [sic] not readily available.” On
January 8, 2013, DPAP personnel through e-mail explained the challenges of obtaining
PCOLS data to support the audit:

                 When DPAP requested the audit in August of 2012, the expectations were that PCPO1
                 would be able to provide the data required for the audit through ad hoc queries run
                 against the PCOLS data warehouse. PCPO tasked DMDC [Defense Manpower Data
                 Center] with performing these ad hoc queries and the data made available. DMDC
                 performed the queries and supplied the extracted data to PCPO, which, was [sic]
                 incomplete for the scope of this audit. It is important to note that all of the data from
                 [Data Mining] activity is [sic] transferred to the DMDC. Heretofore, only the data
                 required for PCOLS Reporting purposes has [sic] been loaded into the PCOLS data
                 warehouse. It was not until after close examination of the extracted data did PCPO



1
 The Purchase Card Policy Office (PCPO) is part of the Program Development and Implementation
Directorate, Defense Procurement and Acquisition Policy, Office of the Under Secretary of Defense
(Acquisition, Technology & Logistics) that requested the audit.


                                                     4
              become aware that all of the historical data was [sic] not being stored in the data
              warehouse. The elements of this historical data were the cause of the audit data being
              incomplete.

In addition, DPAP personnel stated:

              We determined that some of the data fields that needed to be queried were not
              permanently stored in the data warehouse. These required fields are summarily extracted
              to worktables, calculations made to summarize the data, and then the work tables deleted.
              The result was that the some [sic] of the historical data was [sic] not retained in the data
              warehouse and subsequently not available for immediate retrieval.

Defense Procurement and Acquisition Policy Improving
the Purchase Card On-Line System To Permit Added
Oversight
DPAP personnel indicated they were making improvements that will result in retention of
the data necessary to assess A/BOs performance and also permit the PCOLS to be used to
identify trends, develop metrics, and focus on problem areas. Specifically, on
January 8, 2013, DPAP personnel e-mailed the following:

              In order to ensure the ability to re-engage with your Office to complete this audit when it
              is appropriate, and ensure efficient use of audit resources, DPAP has taken actions to
              ensure a higher degree of audit preparedness with respect to data accessibility and system
              architecture in the Data Mining application suite.… We expect that this data to be loaded
              into production by the end of FY 2013 Q2 and available for adhoc [sic] reporting. We
              expect that audit specific reports to be available in production by the end of FY 2013 Q3.

Other Events Affecting Data Availability
The DPAP personnel subsequently indicated that they were making changes to the
PCOLS that would further affect the availability of data. Specifically, the DPAP
completed moving the host for the PCOLS Data Mining module from a contractor’s site
to the Defense Systems Information Agency Enclave (a DoD environment) on
January 26, 2013. The DPAP expected the move would add to the delay in obtaining
data.

The DPAP personnel expected that the move to the Defense Systems Information Agency
                                           Enclave would have a positive effect on
     DPAP personnel expected that the
                                           future programming and maintenance of the
       move to the Defense Systems
                                           Data Mining application. Additionally, the
    Information Agency Enclave would
                                           DPAP expected the move would instill
           have a positive effect
                                           tighter controls related to software
configuration management and overall database support once the application was within
the Defense Systems Information Agency environment. Both these factors were expected
to improve software quality and overall application quality.




                                                  5
Summary
Until DPAP personnel effectively complete their efforts to develop the methodology that
will allow a complete matching of case disposition information with specific GPC
transactions, they will not have the ability to perform an effective assessment of the
A/BOs review process. Additionally, any audit reviews will be limited and the PCOLS
cannot be used to the full potential for managing the GPC program.

DPAP personnel recognized the deficiencies that they had in the automated system that
were preventing them from obtaining the data needed for effective oversight and initiated
the actions mentioned above to improve the PCOLS. As a result of management actions
to be taken in the 2nd and 3rd Quarters of FY 2013, we are not making recommendations
in this report.




                                            6
Appendix: Scope and Methodology
We conducted this performance audit from September 2012 through March 2013 in
accordance with Generally Accepted Government Auditing Standards. However, the
DPAP was unable to provide sufficient information to allow for selecting of an audit
sample to review the case disposition process. The standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for the findings and conclusions we
formed based on our audit objectives.

To determine whether A/BOs adequately reviewed transactions that the PCOLS referred
for being at-risk of noncompliance with applicable laws and criteria, we interviewed
DPAP personnel concerning the PCOLS case disposition process and reviewed
applicable criteria. Additionally, we requested the DPAP to provide the January 1, 2012,
through June 30, 2012, universe of at-risk transactions referred by the PCOLS to the
A/BOs to select a sample to review. On October 1, 2012, DPAP provided 148,488 cases
created by the PCOLS to be sent to A/BOs for review during the period of January 1,
2012, through June 30, 2012. The 148,488 cases included 32,690 cases that the A/BOs
had reviewed and closed. However, the remaining 115,798 cases were either still in the
review process or were related to Military Departments and DoD Agencies not utilizing
PCOLS. For example, the Army and Navy were not fully utilizing PCOLS for the review
of at-risk transactions; however, their transactions were included in the data PCOLS
received from the banks and at-risk cases were created in PCOLS.

However, because of the PCOLS’s system limitations, the DPAP was unable to provide
sufficient information for us to review the 32,690 cases. The PCOLS did not have the
ability to automatically match the necessary data to conduct the audit including A/BOs’
case disposition results matched to information that identified the specific transactions,
card holders, locations, vendors’ data, and time frames for the review process.

Use of Computer-Processed Data
We obtained computer-processed data from the DPAP in support of the audit objective.
However, the PCOLS data did not contain the necessary information to conduct the audit.
The PCOLS did not contain A/BOs’ case disposition results matched to information that
identified the specific transactions, card holders, locations, vendors’ data, and time
frames for the review process. As a result, computer-processed data were not used to
conduct this audit.

Prior Coverage
No prior coverage has been conducted on the use of the Purchase Card On-Line System
to assess and determine whether DoD A/BOs adequately reviewed transactions referred
to them for being at-risk of noncompliance with applicable laws and criteria during the
last 5 years.



                                             7
